No. 20-444

 

 

IN THE

Supreme Court of the Anited States

UNITED STATES OF AMERICA,

Petitioner,
v.

MICHAEL ANDREW GARY,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
13,831 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 18, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
